Report No. D-2011-050              March 16, 2011




      DoD Needs to Improve High Dollar Overpayment
                  Review and Reporting
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BAM                   Business Activity Monitoring
CDS                   Contractor Debt System
DeCA                  Defense Commissary Agency
DFAS                  Defense Finance and Accounting Service
EO                    Executive Order
GAO                   Government Accountability Office
IPIA                  Improper Payments Information Act of 2002
IPOD                  Improper Payments Online Database
OIG                   Office of the Inspector General
OMB                   Office of Management and Budget
PCS                   Permanent Change of Station
SAVES                 Standard Automated Voucher Examination System
SBR                   Statement of Budgetary Resources
TMA                   TRICARE Management Activity
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704
                                                                            March 16,2011


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                SERVICE
               CHIEF OF ENGINEERS, U.S. ARMY CORPS OF
                ENGINEERS
               DIRECTOR, TRICARE MANAGEMENT ACTIVITY

SUBJECT: DoD Needs to Improve High Dollar Overpayment Review and Reporting
         (Report No. D-2011-050)

We are providing this report for review and comment. The first quarterly report on DoD
High Dollar Overpayments, prepared by the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, did not accurately represent the overpayments
made by the Department. We considered management comments on a draft of this report
when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Deputy
Chief Financial Officer for the Office of the Under Secretary of Defense
(Comptroller)/ChiefFinancial Officer comments were partially responsive. Therefore,
we request that the Under Secretary of Defense (Comptroller)/ChiefFinancial Officer
provide additional comments on Recommendations l.aJ and I.d. by April 15,2011. The
Acting Director, Standards & Compliance for Defense Finance and Accounting Service
comments were partially responsive. Therefore, we request that the Director, Defense
Finance and Accounting Service provide additional comments on Recommendations 2.a,
2.b, 2.c, 2.e, and2.f. by April 15, 2011. We received comments from the Assistant
Secretary of Defense (Health Affairs) too late to include in the final report. Therefore, if
the Assistant Secretary does not submit additional comments by April 15, 20 II, we will
consider the comments received as the response to the final report.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, please send a .pdf file containing your cOlilments to aud-colu@dodig.mil.
Copies of the management comments must contain the actual signature of the authorizing
official. We are unable to accept the /Signed/ symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(614)751-2913.




                             Assistant Inspector Ge leral
                       DoD Payments and Accounting Operations
Report No. D-2011-050 (Project No. D2010-D000FJ-0240.000)                   March 16, 2011


              Results in Brief: DoD Needs to Improve High
              Dollar Overpayment Review and Reporting

What We Did                                           What We Recommend
Our objective was to review DoD compliance            We recommend that the Under Secretary of
with Executive Order 13520, “Reducing                 Defense (Comptroller)/Chief Financial Officer
Improper Payments,” November 20, 2009.                develop a methodology to ensure adequate
Specifically, we reviewed DoD’s methodology           coverage and oversight of DoD high dollar
and support for identifying, recovering,              overpayments reporting including:
preventing, and reporting high dollar                    • steps to perform a reconciliation of all
overpayments. We also conducted interviews of                DoD outlays reviewed for improper
key personnel involved with preparing DoD’s                  payments to the Statement of Budgetary
first quarterly report.                                      Resources;
                                                         • development of procedures to ensure
What We Found                                                that all overpayments are reviewed for
                                                             high dollar overpayments; and
The First Quarter FY 2010 High Dollar
                                                         • disclosure of payment areas not
Overpayments Report, issued by the Under
                                                             reviewed for high dollar overpayments.
Secretary of Defense (Comptroller)/Chief
Financial Officer was inaccurate and
                                                      We recommend the Director, Defense Finance
incomplete. Specifically, DoD did not review
                                                      and Accounting Service:
approximately $167.5 billion of the
$303.7 billion in gross outlays for high dollar          • develop procedures to statistically
overpayments. Additionally, some                            sample commercial pay entitlement
overpayments were not reported, and the                     systems; and
Overpayments Report did not include sufficient           • develop internal controls to ensure only
information about recoveries and corrective                 entitled individuals with valid Social
actions. The Overpayments Report was                        Security numbers receive travel
inaccurate and incomplete because the Under                 payments.
Secretary of Defense (Comptroller)/Chief
Financial Officer and the Director, Defense           Management Comments and
Finance and Accounting Service, did not               Our Response
develop a sound methodology or perform                The Deputy Chief Financial Officer, Under
adequate oversight for collecting and reporting       Secretary of Defense (Comptroller)/Chief
comprehensive data. Unless the Under                  Financial Officer and the Acting Director,
Secretary of Defense (Comptroller)/Chief              Standards & Compliance for Defense Finance
Financial Officer and Director, Defense Finance       and Accounting Service, provided comments in
and Accounting Service, take action to improve        response to the report. The comments were
the data collection methodology and oversight,        partially responsive. Therefore, we request
DoD will continue to understate the                   additional comments by April 15, 2011. Please
Department’s high dollar overpayments and             see the recommendations table on the back of
error rate.                                           this page for details.



                                                  i
Report No. D-2011-050 (Project No. D2010-D000FJ-0240.000)                   March 16, 2011

Recommendations Table

             Management                   Recommendations         No Additional Comments
                                         Requiring Comment                  Required
Under Secretary of Defense              1.a.3, 1.d                1.a.1, 1.a.2, 1.a.4, 1.b, 1.c
(Comptroller)/Chief Financial Officer
Director, Defense Finance and           2.a, 2.b, 2.c, 2.e, 2.f   2.d
Accounting Service


Please provide comments by April 15, 2011.




                                             ii
Table of Contents
Introduction                                                               1

      Objective                                                            1
      Background                                                           1
      Review of Internal Controls                                          2

Finding. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer Did Not Comply with the Intent of Executive Order 13520            3

      What the Executive Order Required DoD to Report                      3
      High Dollar Overpayments Identified Were Incomplete                  3
      Weaknesses in the DFAS Consolidation Methodology                     5
      Incomplete Review of Collections from Individuals for High Dollar
        Overpayments                                                       7
      Inaccurate Reporting on High Dollar Overpayments Recovered           9
      Planned Actions to Prevent High Dollar Overpayments                 10
      Non-Compliance with Public Scrutiny Requirements and
        Lack of Consideration of Outside Sources That Identified
        High Dollar Overpayments                                          11
      Actions Needed to Improve Reporting                                 13
      Summary                                                             14
      Recommendations, Management Comments, and Our Response              14

Appendices

      A. Scope and Methodology                                            22
             Prior Coverage                                               23
      B. First Quarter FY 2010 High Dollar Overpayments Report            24
      C. OIG Risk Assessment as Required by Executive Order 13520         33

Management Comments

      Office of the Under Secretary of Defense (Comptroller)/Chief
       Financial Officer                                                  34
      Defense Finance and Accounting Service                              37
Introduction
Objective
The objective of the audit was to review DoD compliance with the Executive Order (EO)
13520, “Reducing Improper Payments,” November 20, 2009. The EO required the head
of each agency to publish a quarterly report on high dollar overpayments. See
Appendix A for a discussion of the audit scope and methodology and a discussion of
prior coverage related to the objective. See Appendix B for a copy of the DoD “First
Quarter FY 2010 High Dollar Overpayments Report,” (the Overpayments Report) issued
by the Under Secretary of Defense (Comptroller)/Chief Financial Officer (the
Comptroller).

Background
EO 13520 requires that within 180 days of the EO, and quarterly thereafter, the head of
each agency must submit to the Office of the Inspector General (OIG), Council of
Inspectors General on Integrity and Efficiency, and make available to the public a report
on:

    •   high dollar overpayments identified;
    •   high dollar overpayments recovered; and
    •   actions to prevent high dollar overpayments.

EO 13520 implementing guidance 1 defines a high dollar improper payment as any
overpayment that is in excess of 50 percent of the correct amount of the intended
payment where:

    •   the payment to an individual exceeds $5,000 as a single payment or in cumulative
        payments for the quarter; or
    •   the payment to an entity exceeds $25,000 as a single payment or in cumulative
        payments for the quarter.

EO 13520 also requires the agency Inspector General to review agency improper
payment reports and provide the agency head with recommendations, if any, for
modifying the agency's methodology, improper payment reduction plans, program access
and participation plans, corrective action plans, or internal controls.

DOD’s risk of making improper payments was high. We based the high level of risk on
Defense Finance and Accounting Service (DFAS) self-identified control deficiencies and



1
 Office of Management and Budget (OMB) Circular A-123, “Management’s Responsibility for Internal
Control,” Appendix C, "Requirements for Effective Measurement and Remediation of Improper
Payments," revised March 22, 2010.

                                                1
prior assessments by the Government Accountability Office (GAO) and the DoD OIG.
See Appendix C for a discussion on the risk assessment.

Review of Internal Controls
We determined that internal control weaknesses in the office of the Comptroller review
and reporting of improper payments existed as defined by DoD Instruction 5010.40,
“Managers’ Internal Control Program (MICP) Procedures,” July 29, 2010. We found that
the Comptroller did not review a significant portion of its annual outlays for improper
payments. We also found that the DFAS did not have adequate oversight of the recalls,
offsets, and rejects commonly used to correct improper payments. We will provide a
copy of the report to the senior official responsible for internal controls in office of the
Comptroller and DFAS.




                                             2
Finding. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer Did
Not Comply With the Intent of Executive
Order 13520
The “First Quarter FY 2010 High Dollar Overpayments Report,” (Overpayments Report)
issued by the Comptroller was inaccurate and incomplete. Specifically, DoD did not
review approximately $167.5 billion of the $303.7 billion in gross outlays for high dollar
overpayments. Additionally, some overpayments were not reported, and the
Overpayments Report did not include sufficient information about recoveries and
corrective actions. The Overpayments Report was inaccurate and incomplete because the
Comptroller and the Defense Finance and Accounting Service (DFAS) did not develop a
sound methodology or perform adequate oversight for collecting and reporting
comprehensive data. Unless the Comptroller and DFAS take action to improve the data
collection methodology and oversight, DoD will continue to understate the Department’s
high dollar overpayments and error rate.

What the Executive Order Required DoD to Report
EO 13520 required DoD to provide a quarterly report on three elements:

    •   high dollar overpayments identified;
    •   high dollar overpayments recovered; and
    •   actions to prevent high dollar overpayments.

High Dollar Overpayments Identified Were Incomplete
In response to the first element required by the EO 13520, identification of high dollar
overpayments, the Comptroller submitted his first Overpayments Report to the DoD OIG
on July 12, 2010. We examined the Overpayments Report and concluded that the high
dollar overpayments reported were not based on a complete examination of all DoD
payments. The Comptroller reported gross outlays of $303.7 billion in the First Quarter
FY 2010 DoD Statement of Budgetary Resources (SBR). 2 The Comptroller and DFAS
did not review $167.5 billion of the Department’s $303.7 billion in gross outlays.

According to the Comptroller, DFAS disbursed all of the high dollar payments identified
in the quarterly Overpayments Report. The Comptroller stated that no high dollar
overpayments were identified by any other disbursing activities. The table summarizes
the overpayments in the Overpayments Report.


2
  The SBR is reported in the DoD Agency Financial Report to outline the Department’s total budget
authority, obligations, and outlays. The SBR gross outlays represent the total amount of payments made by
the DoD during a given time period. This payment information is reported quarterly and annually to ensure
budget transparency and reporting completeness

                                                   3
Table. Summary of First Quarter FY 2010 DoD High Dollar Overpayments Report
                                 Number of
  DoD Payment Programs         Overpayments       Overpayment Amount
  Individual
    Civilian Pay                     22              $202,608
    Military Retirement Pay           9                 64,268
      Individual Sub Total:          31               266,876
  Entities (Contractor)             168            49,818,099
       Total Overpayments:          199           $50,084,975


DFAS reviews excluded approximately 55 percent of DoD total first quarter FY 2010
payments from the high dollar review. DFAS reviewed $94.2 billion of commercial pay
outlays for entity high dollar overpayments. Additionally, DFAS and other DoD
components reviewed $42.0 billion of outlays to individuals for high dollar
overpayments. The Comptroller did not require DFAS or the other DoD components to
examine the remaining $167.5 billion of first quarter FY 2010 outlays, including Military
Health Benefits payments. The figure illustrates the total DoD outlays and the significant
percentage of high dollar overpayments not reviewed during the first quarter.

                      Figure. Outlays for First Quarter FY 2010
                                       (Billion)
                                                      Outlays Not Reviewed
                           $42.0
                                                      Outlays Reviewed for Entity
                           14%
                                                      Outlays Reviewed for Individual

              $94.2
              31%

                                                               $167.5
                                                                55%




A Comptroller official stated that DoD could not reconcile program outlays to the
quarterly or annual SBR. Additionally, DFAS officials stated in a Self-Identified
Deficiency Report that the amount of payments reviewed did not correlate to total outlays
on the SBR.

DoD’s inability to identify and reconcile total payments to the SBR negatively affected
the reliability and completeness of any measurements, estimates, or reviews for improper
payments. Additionally, the Overpayments Report did not accurately portray DoD’s risk

                                            4
                                 of high dollar overpayments. The lack of a
    …the Overpayments
                                 reconciliation of the universe of payments made it more
 Report did not accurately
                                 probable that the Comptroller misrepresented and
 portray DoD’s risk of high
                                 understated the Department’s high dollar overpayments
   dollar overpayments.
                                 and error rate.

DFAS and USACE Did Not Review All Contract Entitlement Systems
DFAS and the United States Army Corps of Engineers, Civil Works, did not review all
contract entitlement systems for high dollar overpayments. This occurred because DoD
did not reconcile the universe of payments to ensure that all systems were reviewed for
high dollar overpayments. The unreconciled universe led to significant missed
opportunities to identify overpayments in major payment systems. For example, there
were six prominent DoD payment systems whose $9.5 billion in payments were not
reviewed for overpayments. Specifically, DFAS did not review approximately $2.2
billion in payments from the five entitlement systems:
   •   College and University Financial System (CUFS);
   •   Defense Agency Initiative (DAI);
   •   Financial Accounting and Budget System (FABS);
   •   Army General Fund Enterprise Business System (GFEBS); and
   •   Standard Automated Voucher Examination System (SAVES).

In addition to the five systems not reviewed by DFAS, the United States Army Corps of
Engineers, Civil Works, made its own commercial payments outside of DFAS using the
Corps of Engineers Financial Management System. However, the Army Corps of
Engineers had not completed its random statistical sample of approximately $7.3 billion
of commercial payments made from the Corps of Engineers Financial Management
System in time for inclusion in the Overpayments Report.

Weaknesses in the DFAS Consolidation Methodology
We also identified significant weaknesses in the consolidated information and
methodology DFAS used to compile its list of commercial overpayments. DFAS relied
on data entered into the Contractor Debt System (CDS) and the Improper Payments
                                             Online Database (IPOD) to compile its
   …six entitlement systems, reporting
                                             overpayments. However, not all of the DoD
    approximately $8.7 billion in first
                                             commercial payment systems reported improper
   quarter total outlays, did not report
                                             payment information to the CDS or IPOD.
    improper payment information to
                                             DFAS records showed that six entitlement
                   IPOD.
                                             systems, reporting approximately $8.7 billion in
first quarter total outlays, did not report improper payment information to IPOD.
One of the entitlement systems that created improper payments, but was not reported in
IPOD was the Standard Automated Voucher Examination System (SAVES).

SAVES is the entitlement system used for making payments for the Defense Commissary
Agency (DeCA). DFAS Columbus personnel who worked on the system provided
evidence of significant overpayments that were not reported. For example, supporting

                                             5
documentation showed that on November 24, 2009, DFAS made a payment of
$109,089.96 to the Fort James Operating Company instead of the correct amount of
$9,096.36, resulting in an overpayment of $99,993.60. DeCA documents showed that the
overpayment was the result of a "Receiving Quantity Error." DeCA personnel stated that
they did not know how the error occurred and verified that the payment amount should
have been $9,096.36. DeCA personnel further stated that they learned of the improper
payment from the vendor. Following notification of the overpayment, on February 4,
2010, DeCA performed an offset to reclaim the overpaid funds.

The SAVES overpayment was more than the OMB reporting threshold of $25,000 and at
least 50 percent more than the correct amount. The reporting error occurred because
DFAS Columbus did not capture SAVES improper payment information in IPOD.
Specifically, the IPOD administrator did not ensure that SAVES reported improper
payment information for inclusion in IPOD. The lack of reporting caused DFAS to omit
the amount from its high dollar improper payment review. This reporting error was also
one of several indicators that the Comptroller understated entity pay high dollar
overpayments in the Overpayments Report.

The methodology DFAS used to identify and report high dollar overpayments also needs
improvement. DFAS summarized overpayments by contractor before determining
whether the payment met the high dollar threshold. This caused DFAS to exclude the
reporting of some very high dollar transactions. For example, DFAS excluded a
$354,779 overpayment from the Overpayments Report. The individual overpayment
initially met the high dollar reporting criteria; however, DFAS combined the transaction
with eight other overpayments made to the same contractor. Once combined, the total
overpayment amount did not exceed the 50 percent error threshold stipulated by OMB.

DFAS Did Not Review Recalls, Offsets, and Rejects for Overpayments
DFAS reported that none of the entitlement systems reviewed for entity high dollar
overpayments included a review of corrections made using recalls, offsets, and rejects.
The following briefly describes DFAS processes for correcting overpayments.
   •   Recalls correct overpayments. In the case of a recall, DFAS attempts to withdraw
       an overpayment from the contractor’s bank account.
   •   Offsets occur because of an overpayment. Rather than issuing a demand letter,
       the amount of the overpayment is deducted from the next payment to that
       contractor.
   •   Rejects are electronic funds transfers not accepted by the receiving bank. These
       rejects are indicative of overpayments and can occur for a variety of reasons, such
       as a closed account, or the existence of non-matching information between the
       payment and the account holder. DFAS corrects the rejected overpayment and
       disburses the updated payment information.

The necessity for executing recalls, offsets, and rejects to correct overpayments indicates
the possibility of a significant amount of overpayments. However, DFAS did not keep
statistics or reports on these corrections. As a result, the Comptroller did not have


                                             6
visibility over corrections made during or immediately after payment, and information
about them was not collected and reported.

Incomplete Review of Collections from Individuals for High
Dollar Overpayments
DFAS did not review or provide information on all collections from individuals. DFAS
processed most of the payments DoD made to individuals including civilian, military,
travel, and retired and annuitant payments.

        Civilian Pay Collections. DFAS identified 1,211 civilian pay collections (debts).
These debt amounts, totaling $7.9 million, were in excess of the OMB reporting
threshold. However, DFAS did not review all of the 1,211 collections for high dollar
overpayments. Instead, DFAS randomly selected 110 civilian pay collections, totaling
$0.6 million, for review. The review identified 22 collections that met the requirements
of a high dollar overpayment and needed to be reported. However, this process was
limited to a small sample. Without a full review of civilian pay collections, the
Comptroller could not assert to a complete listing of high dollar overpayments.

DFAS personnel stated that the cost to provide better information was sizeable and that
significant resources were already devoted to identifying high dollar overpayments.
DFAS officials estimated that it cost approximately $25,000 in overtime to identify and
report the high dollar overpayments in the sample.

        Military Pay Collections. DFAS did not review military pay collections (debts)
for high dollar overpayments. DFAS identified 84,509 newly established military pay
debts totaling $36.4 million in the First Quarter of FY 2010. However, DFAS personnel
explained they did not review and report the information because the Defense Manpower
and Data Center provided the debt information at a summary level to the DFAS Post Pay
Review and Analysis Team. The Summary level data were inadequate because the Post
Pay Review and Analysis Team required a list of in-service collection debts at the
individual or Social Security number level to identify high dollar overpayments. The
Defense Manpower and Data Center was unable to provide the required level of
information in time to meet the reporting deadlines for the Overpayments Report.
However, during the second quarter of FY 2010, DFAS was able to obtain this
information.

DFAS performed a statistical sample review to identify high dollar overpayments in
military pay but did not review collections. DFAS disclosed this limitation to the
Comptroller during the reporting process. However, the Comptroller did not provide full
disclosure in the Overpayments Report that DFAS did not completely review the military
pay area for high dollar overpayments. Until the Comptroller fully discloses areas not
reviewed, the Overpayments Report will not accurately present DoD’s risk of improper
payments.

      Travel and Retired and Annuitant Pay Collections. The DFAS Post Pay
Review and Analysis Team did not review the collections DoD obtained from travelers

                                            7
who were paid for travel through the Defense Travel System or the Integrated Automated
Travel System for Windows. Additionally, DFAS did not review retired and annuitant
collections, totaling approximately $13.3 million. DFAS needed to establish a
methodology to review all collections related to travel and retired and annuitant
payments. Without a proper review, DFAS cannot report accurately or perform a root
cause analysis to identify the internal controls needed to prevent overpayments in the
future.

DFAS Post Pay Review and Analysis Team Should Have Access to
Personnel Records when Performing Reviews of Civilian and Military
Pay
The DFAS Post Pay Review and Analysis Team did not have the necessary access to
personnel records, such as the Standard Form-50, “Notification of Personnel Action,” to
conduct an adequate review of civilian or military pay for overpayments. Specifically,
the DFAS Post Pay Review and Analysis Team was unable to verify employee’s grade,
locality, age, or wage when reviewing payments processed by DFAS.

Additionally, the DFAS Post Pay Review and Analysis Team was unable to verify
whether the human resource personnel entered employee timesheets appropriately into
the Defense Civilian Payroll System used to issue payments to DoD civilians. Civilian
Pay is a large payment program that disbursed approximately $7.2 billion during the first
quarter FY 2010.

DFAS Needed To Review Civilian Permanent Change of Station
Payments
DFAS excluded high dollar Permanent Change of Station (PCS) travel overpayments
from its Overpayments Report. The DFAS Post Pay Review and Analysis Team did not
review civilian PCS travel payments to identify high dollar overpayments. Travelers
receive PCS payments when they relocate for official business.

PCS payments can be for large amounts that may meet the high dollar threshold for
reporting. For example, we examined records that showed DFAS made a civilian PCS
overpayment of $13,608.96 to an individual in the first quarter of FY 2010. The
overpayment occurred because the traveler submitted three travel authorizations using
two different Social Security numbers for payment. The resulting vouchers included one
correct and one incorrect Social Security number for the traveler. DFAS established two
profiles in the Integrated Automated Travel System for Windows for the same person and
paid the individual’s travel expenses twice. The traveler who was overpaid contacted
DFAS about the duplicate payment and DFAS issued a demand letter to recover the
overpayment. The traveler immediately refunded DFAS the overpayment. However,
                                   DFAS did not adequately maintain accounting records
  The lack of internal controls on the collection and seven months later began a salary
    caused DFAS to overpay         offset of the traveler’s pay. The unnecessary salary
      and then subsequently        offset created an additional improper payment related
      underpay the traveler.       to civilian pay. The lack of internal controls caused
DFAS to overpay and then subsequently underpay the traveler. DFAS needed to

                                            8
implement internal controls to verify the Social Security number of the individual
receiving payment to ensure that payments from the Integrated Automated Travel System
for Windows are to DoD personnel or other entitled individuals and report these types of
overpayments in its quarterly high dollar Overpayments Reports.

We noted that the same traveler with Social Security number issues also improperly
received a Temporary Duty Travel payment that he was not entitled to while receiving
PCS payments. This occurred because the Defense Travel System that processes
Temporary Duty Travel payments and the Integrated Automated Travel System for
Windows that processes PCS payments do not interface to identify overlapping travel.
DFAS Columbus personnel processing PCS payments do not have access to the Defense
Travel System to identify duplicate or overlapping payments. The system interface
would allow DFAS Columbus personnel to identify overlapping payments prior to
disbursement, preventing improper payments. DFAS Columbus issued a demand letter to
the traveler for the improperly paid travel entitlement after the audit team identified the
overpayment and informed DFAS management. DFAS needs to ensure that duplicate or
overlapping travel payments are not processed in both the Defense Travel System and the
Integrated Automated Travel System.

Military Health Benefits Payments Were Not Fully Reviewed or
Reported
The Comptroller did not disclose that TRICARE Management Activity (TMA) did not
fully review Military Health Benefits outlays that it made. Additionally, the Comptroller
did not report on overpayments that TMA identified in its partial review. TMA reviewed
approximately $3.0 billion of Military Health Benefits for overpayments in the first
quarter. However, TMA did not review approximately $1.7 billion in pharmacy claims.
TMA plans to begin auditing pharmacy claims in FY 2011. TMA identified high dollar
overpayments in the first quarter FY 2010 that the Comptroller did not include in the
Overpayments Report. For example, in December 2009, TMA identified a $71,174.84
overpayment due to a claim payment error.

The Overpayments Report should contain the results of audits and reviews of Military
Health Benefits payments. However, Comptroller personnel determined that it was not
cost effective to interrupt TMA’s regular statistical sampling process to perform separate
high dollar sampling because of the program’s complex nature. The Comptroller needs
to disclose the Military Health Benefits payment areas not reviewed and report the results
of ongoing efforts to identify improper payments.

Inaccurate Reporting on High Dollar Overpayments
Recovered
The second element of EO 13520 requires DoD to describe actions taken to recover
improper payments. The Comptroller’s Overpayments Report showed that a large
portion of the high dollar overpayments had already been recovered, but the
Overpayments Report was not reliable. Specifically, the Overpayments Report showed
that $41.3 million of the $49.8 million, or 82.9 percent, of the overpayments to entities

                                             9
was recovered through May 31, 2010. For high dollar overpayments to individuals, the
Overpayments Report showed that DFAS collected $223,661 of the $266,876, or 83.8
percent, as of April 30, 2010.

The Comptroller reported that DFAS implemented an improved Accounts Payable-
Accounts Receivable Handoff process to compile information for the Overpayments
Report. The Comptroller stated that the Accounts Payable-Accounts Receivable Handoff
process provided procedures to ensure DFAS preformed proper due diligence to include
demand letter processing, follow-up actions, and collection and transfer of the debt to the
Debt Management Process. In addition, the Comptroller stated that DFAS was piloting a
project to refer selected commercial pay debts to the U.S. Treasury on the 91st day rather
than in the usual 180 days. The project was designed to assess the feasibility, cost, and
benefit to DoD of forwarding the debts earlier than required.

To test whether the process for reporting recoveries was reliable, we selected 5 of the 75
entity high dollar overpayments identified in the Overpayments Report as not fully
recovered as of May 31, 2010. The five high dollar overpayments shown as not fully
recovered totaled approximately $3.5 million.

Our examination of the five high dollar overpayments showed that all of the five
overpayments were either incorrectly listed in the Overpayments Report as not yet fully
recovered or were invalid debts that did not need to be recovered. Specifically, for one of
the five sampled overpayments, the Overpayments Report showed that the overpaid
amount was not recovered; however documents provided by DFAS showed that the
overpayment was recovered on November 30, 2009. For three of the five overpayments,
DFAS determined that the reported overpayments were not valid debts. As a result, the
debts should not have been reported or recovered. Finally, the remaining overpayment
was improperly calculated. This caused a reporting discrepancy that overstated the
amount available for recovery.

Planned Actions to Prevent High Dollar Overpayments
The third element of EO 13520 requires DoD to report planned actions to prevent
improper payments from occurring in the future. The Comptroller’s report on DoD
preventative action did not disclose some weaknesses. In the Overpayments Report, the
Comptroller identified the Business Activity Monitoring tool (BAM) as the only method
of taking corrective action on high dollar overpayments. BAM is a pre-payment
validation tool that runs a discrete number of tests in order to identify potential improper
payments before disbursement.

        Entitlement Systems Not Using BAM. DFAS used BAM to identify duplicate
payments, overpayments, and some underpayments. However, not all DoD payment
systems used BAM. DFAS did not fully disclose planned corrective actions for
entitlement systems that do not use BAM. For example, the Comptroller’s Overpayments
Report included a $205,757 overpayment from the Automated Voucher Examining and
Disbursing System (AVEDS). However, there was no discussion of corrective actions in


                                             10
the Comptroller’s Overpayments Report for AVEDS because it is one of 20 DoD
entitlement systems not using BAM.

        False Positives. The large number of transactions flagged by BAM for review
negatively affected the efficiency of the review. According to data provided by the BAM
                                       Project Management Office, BAM produced results
   …BAM produced results that          that had a false positive rate of more than 95
    had a false positive rate of       percent. A false positive is a transaction flagged as
       more than 95 percent.           a potential improper payment but after review is
                                       determined to be proper. For example, in the first
quarter of FY 2010, BAM reviewed approximately 2.6 million transactions and flagged
138,254 of those transactions. DFAS researchers found that 6,856 were actual improper
payments.

The high number of false positives made it difficult for the researchers to conduct
appropriate research in a timely manner and without delaying payment. A BAM
reviewer for the Computerized Accounts Payable System-Windows entitlement system
reported that both she and another reviewer each reviewed approximately 150
transactions per day, averaging about 3 minutes for each review. Similarly, BAM
supervisors for the One Pay system stated that they had to rotate reviewers to avoid burn
out. The high rate of false positives and limited time for review increased the risk of
improper payments going undetected prior to payment processing.

       No Standardized Methodology for Reviewing BAM Flagged Transactions. In
addition to generating false positives, the BAM review methodology had not been
standardized across payment systems or even within the same office. Personnel charged
with reviewing BAM-flagged transactions reported that they learned the processes
through on-the-job training and that DFAS provided no formal training on the research
process. The lack of a standardized methodology could lead to DFAS not detecting and
preventing improper payments due to poor quality review. For example, we observed an
occurrence where BAM flagged two payments as potential duplicate transactions valued
at $108,942 each. The researcher reviewed the two invoices that included a generic
description of “lease of vehicles,” and the researcher determined that the payments were
valid. The audit team questioned the decision and, after further review by another DFAS
researcher, the researchers concluded that one of the payments was a duplicate. The
duplicate was corrected on site, but DFAS would have made the duplicate payment had
the audit team not questioned the original determination during our visit. Until a standard
methodology for review is established, the DoD risks making improper payments that
were properly flagged by BAM.

Non-Compliance with Public Scrutiny Requirements and
Lack of Consideration of Outside Sources That
Identified High Dollar Overpayments
In addition to inaccurate and incomplete reporting and insufficient action to correct
overpayments, Comptroller oversight of compliance with EO 13520 was inadequate. We

                                            11
based this assessment on missed reporting deadlines and auditor identified weaknesses in
the Overpayments Report. Specifically, the Comptroller missed the reporting deadline
and did not provide the Overpayments Report to the DoD OIG until July 12, 2010. In
addition, DoD did not provide adequate information for public scrutiny and consider
results from investigations or audit reports identifying high dollar overpayments.

        Limited Public Scrutiny. EO 13520 required the head of each agency to submit
the First Quarterly Report on High Dollar Overpayments to the OIG and to make it
available to the public by May 19, 2010. President Obama’s order states:

           The purpose of this order is to reduce improper payments by
           intensifying efforts to eliminate payment error, waste, fraud, and abuse
           in the major programs administered by the Federal Government, while
           continuing to ensure that Federal programs serve and provide access to
           their intended beneficiaries. No single step will fully achieve these
           goals. Therefore, this order adopts a comprehensive set of policies,
           including transparency and public scrutiny of significant payment
           errors throughout the Federal Government; a focus on identifying and
           eliminating the highest improper payments; accountability for
           reducing improper payments among executive branch agencies and
           officials; and coordinated Federal, State, and local government action
           in identifying and eliminating improper payments.

DoD did not provide adequate information for public scrutiny. For the first quarter of
FY 2010, the Web site published only six DoD high dollar entity overpayments, totaling
approximately $34 million, on the list of the top 10 government high dollar
overpayments. The www.paymentaccuracy.com Web site posting excluded 193 high
dollar overpayments, totaling approximately $16.1 million, from public scrutiny. As a
result, the high dollar overpayments reported on www.paymentaccuracy.gov were not
sufficient to meet the intent of the President’s Executive Order of making the
Overpayments Report available to the public. The Comptroller did not post the
Overpayments Report to a DoD Web site, and Comptroller personnel stated that DoD is
not required to post quarterly high dollar reports to a DoD Web site. The Comptroller
determined that providing the Overpayments Report to www.paymentaccuracy.gov
allowed for sufficient public scrutiny; however, the Web site did not post a complete
listing of DoD high dollar overpayments. The Comptroller needs to use additional
publication methods to make all high dollar overpayments reported in the Overpayments
Report available to the public in order to increase transparency and comply with the
President’s intent.

       Outside Sources Not Considered. Comptroller personnel did not review results
from investigations or audit reports to identify high dollar overpayments. Specifically,
Comptroller personnel did not consider results from investigations or audit reports issued
by GAO, DoD OIG, Army Audit Agency, Naval Audit Service, Air Force Audit, or
Defense Contract Audit Agency as potential sources to identify additional overpayments.
Additionally, audit reports often contain findings on the methodology used to identify
and correct improper payments. For example, GAO previously reported that despite

                                            12
Improper Payment Information Act of 2002 (IPIA) requirements, DFAS did not correctly
use statistical sampling to estimate improper payments for commercial pay.

EO 13520 implementing guidance suggests that Agencies track improper payments
identified and recovered through a variety of means, including statistical samples under
the IPIA. However, DFAS did not implement a sampling methodology that allowed for a
statistical projection of both over- and under-payments. The implementation of statistical
sampling would improve Comptroller personnel’s oversight of high dollar overpayments
made by DFAS.

Actions Needed to Improve Reporting
To improve the completeness and accuracy of the DoD quarterly high dollar
overpayments reporting, the Comptroller should take action on the weaknesses identified
in this report. The incomplete and inaccurate reporting described above existed because
the Comptroller did not develop a sufficient methodology or perform adequate oversight
to support a reasonably exhaustive study of its payment operations for reporting under
EO 13520.

The methodology used to identify and report on high dollar overpayments needs to be
more rigorous and consistent. The first step is to reconcile program outlays to the
amounts reported in the SBR to ensure DoD includes the entire payment universe for
review. After determining the most accurate universe of DoD payments, the Comptroller
needs to provide a written plan and an efficient approach that DFAS and other DoD
Components could use to sample payments for high dollar overpayments.

The methodology could include, but not be limited to, procedures for reviewing and
including results of recalls, offsets, and rejects. Additionally, the methodology could
include procedures to ensure that all identified high dollar overpayments are reported;
and include procedures to review results from investigations, audit reports, and
management reports for high dollar overpayments.

The Comptroller also needs to coordinate with TMA and other DoD Components to
review the Military Health Benefits payments for high dollar overpayments on a quarterly
basis. Additionally, ensuring that payment or collection areas not reviewed for high
dollar overpayments are disclosed in the quarterly Overpayments Reports would provide
additional transparency.

The Comptroller needs to perform effective oversight and direct DFAS to develop
procedures and implement a sound methodology for reviewing all commercial pay
entitlement systems for high dollar overpayments. The Director, DFAS, should use a
statistical sample to identify improper commercial payments, review collections from
individuals, and report any improper payments identified through statistical sampling.
The Director, DFAS, should also coordinate with human resources offices to obtain
personnel records to ensure civilian overpayments are detected and reported. The
Director, DFAS, should also review PCS payments and develop and implement internal
controls to ensure only DoD personnel or other entitled individuals with valid Social

                                            13
Security numbers receive payments from the Integrated Automated Travel System for
Windows.

Summary
The purpose of EO 13520 is to reduce improper payments by intensifying efforts to
eliminate payment error, waste, fraud, and abuse. EO 13520 adopts a comprehensive set
of policies to ensure transparency and public scrutiny of significant payment errors.

The Comptroller did not comply with EO 13520 requirements for transparency.
Although the Overpayments Report identified $50 million in overpayments, it was not
complete. The Overpayments Report did not provide an adequate representation of the
number and amount of DoD’s quarterly high dollar overpayments. The Comptroller and
DFAS did not review and report on some large payments and significant programs to
ensure report accuracy and completeness. Without accurate reporting, DoD will not be
able to measure its progress in reducing high dollar overpayments.

In addition to the incomplete review and reporting, the Overpayments Report did not
allow for public scrutiny. EO 13520 required the head of each agency to submit the First
Quarterly Report on High Dollar Overpayments to the OIG, the Council of Inspectors’
General on Integrity and Efficiency, and make it available to the public by May 19, 2010.
As of December 7, 2010, the Comptroller had not posted the Overpayments Report to
DoD’s website for public scrutiny.

The Comptroller did not comply with the intent of the President’s Order. The content of
the Overpayments Report did not increase transparency to the fullest extent possible and
was not available for public scrutiny.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

      a. Develop a written plan and methodology to ensure adequate oversight of
DoD high dollar overpayments reporting. The methodology should include:

             (1) steps to reconcile all DoD outlays reviewed for improper
payments against the Statement of Budgetary Resources gross outlays to determine
whether all DoD payments and systems are reviewed for overpayments;

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The Deputy Chief Financial Officer (DCFO) for the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer agreed with the intent of the
recommendation. The DCFO stated that the DoD will develop a written plan and
methodology to ensure adequate oversight of DoD high dollar overpayments reporting.

                                           14
Specifically, the DCFO stated that the Comptroller will collaborate with DFAS to
develop a methodology to reconcile outlays as closely as possible to the quarterly
Statement of Budgetary Resources to determine whether all DoD payments and systems
are being reviewed for overpayments.

Our Response
The DCFO's comments were responsive and met the intent of the recommendation. No
additional comments are required.

               (2) procedures for reviewing and including results of recalls, offsets,
and rejects for overpayments;

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The DCFO agreed with the recommendation. The DCFO stated that the Comptroller will
collaborate with DFAS to establish procedures for reviewing information on corrections,
including recalls, offsets, and rejects for overpayments.

Our Response
The DCFO’s comments were responsive and met the intent of the recommendation. No
additional comments are required.

             (3) procedures to ensure that all overpayments are reviewed for high
dollar overpayments and eligible for inclusion in the high dollar report; and

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The DCFO agreed with the intent of the recommendation. The DCFO stated that
resource and time constraints do not allow for review of all individual overpayments for
inclusion in the high dollar report. Therefore, the Comptroller approved the use of a
statistical sampling for identifying individual high dollar overpayments to accomplish the
intent of the Executive Order. The DCFO stated that the Comptroller collaborated with
DFAS to establish procedures to ensure all entity overpayments are reviewed for
inclusion in the high dollar report based on current data sources. The DCFO stated that
the collaboration began subsequent to the Quarter 1, Fiscal Year 2010, reporting.

Our Response
Although the DCFO agreed with the intent of the recommendation, we disagree with the
proposed methodology. The Executive Order implementing guidance states the high
dollar overpayments report should list all high dollar overpayments identified by the
agency during the quarter. The approval of a statistical sample instead of a full review of
collections from individuals potentially understated the number of high dollar
overpayments reported. For example, DFAS identified 22 high dollar overpayments for
civilian pay by reviewing only 110 out of the 1,211 collections. The Comptroller’s
ability to accurately report high dollar overpayments, perform root cause analysis, and

                                            15
identify the internal controls needed to prevent overpayments in the future would have
increased had DFAS reviewed all collections for civilian, military, travel, and retired and
annuitant pay. We request the DCFO reconsider our recommendation and provide
additional comments for the final report.

              (4) procedures to review other sources for high dollar overpayments,
including results from investigations, audit reports, and management reports.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The DCFO agreed with the recommendation. The DCFO stated that procedures to
review other sources, including audit reports, results from investigations, and
management reports for high dollar improper payments will be implemented.

Our Response
The DCFO’s comments were responsive and met the intent of the recommendation. No
additional comments are required.

        b. Direct the TRICARE Management Activity and other DoD Components
to review the Military Health Benefits for high dollar overpayments on a quarterly
basis.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The DCFO partially agreed with the recommendation. The DCFO stated that all DoD
Components have been directed to review payments for high dollar overpayments on a
quarterly basis. The DCFO stated that the Comptroller will work with TRICARE
Management Activity to ensure high dollar value payments are appropriately reported.

Our Response
The DCFO's comments were responsive and met the intent of the recommendation. No
additional comments are required.

       c. Disclose payment or collection areas not reviewed for high dollar
overpayments, the potential impact of those areas on amounts reported, as well as
plans to review all payments or collections for the Quarterly High Dollar
Overpayments Report.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The DCFO agreed with the recommendation stating that payment and collection areas not
reviewed for high dollar overpayments will be disclosed in the quarterly reporting.




                                            16
Our Response
The DCFO's comments are responsive and met the intent of the recommendation. No
additional comments are required.

       d. Publish the Quarterly High Dollar Overpayments Report for public
review on the DoD website within 15 days of providing the Overpayments Report to
the Inspector General.

Under Secretary of Defense (Comptroller)/DoD Chief Financial
Officer Comments
The DCFO agreed with the intent of the recommendation. The DCFO stated that the
Comptroller’s interpretation of OMB implementing guidance is that OMB does not
require the Department to post high dollar improper payments on its Web site. However,
the DCFO stated that DoD will continue to provide its quarterly high dollar reporting to
OMB and the Treasury Department for inclusion on the Payment Accuracy Web site to
allow for public review.

Our Response
Although the DCFO agreed with the intent of the recommendation, we do not consider
the comments responsive. We believe that providing the overpayments report to OMB
and the Payment Accuracy Web site does not allow for adequate public transparency.
Specifically, the www.paymentaccuracy.com Web site posting excluded 193 high dollar
overpayments of approximately $16.1 million from public scrutiny. We request that the
DCFO reconsider our recommendation and provide additional comments for the final
report.

2. We recommend the Director, Defense Finance and Accounting Service:

      a. Develop procedures and implement a methodology to include statistically
sampling commercial pay entitlement systems for improper payments;

Defense Finance and Accounting Service Comments
The Acting Director, Standards & Compliance for DFAS partially agreed with the
recommendation. The Acting Director stated that DFAS plans to perform a risk
assessment on entitlement systems that are not currently reporting actual improper
payments under the current procedure. The Acting Director stated that once the risk
assessment is completed, DFAS will evaluate the need for a sampling plan based on the
outcome of the assessment and current prepayment controls. The Acting Director stated
that DFAS requires its network to report actual improper payments monthly into the
Improper Payment Online Database and into the Contract Debt System. DFAS estimated
the date of completion of the proposed action to be September 30, 2012.

Our Response
Although the Acting Director for DFAS partially agreed with the recommendation, we do
not consider the comments responsive. We agree that performing a risk assessment on

                                           17
systems not currently reporting improper payments is necessary. However, the Acting
Director implied that DFAS will not perform a statistical sample to identify improper
payments for the current contract entitlement systems that are reporting improper
payments. A statistical sample would allow for a systematic methodology that could both
project and identify improper payments. Currently, DFAS identifies contract improper
payments through debt letters issued and receipt of unsolicited refunds, which does not
allow for a comprehensive review of all payments. Until a statistical sample is
implemented for all entitlement systems, DoD will be unable to estimate the total amount
of improper payments and fully report high dollar overpayments. Additionally, as
mentioned in the report, the IPOD and CDS databases include numerous weaknesses in
the process that caused underreporting of high dollar overpayments in the contract
payment area. We request that the Acting Director provide a response to the final report
specifying the action DFAS will take to implement a statistical sample of contract
payments.

        b. Review all civilian, military, travel, and retired and annuitant pay
collections or debts for high dollar overpayments;

Defense Finance and Accounting Service Comments
The Acting Director partially agreed with the recommendation. DFAS elected to review
random samples for cases of Military and Civilian Pay potential high dollar
overpayments. The Acting Director stated that DFAS does not capture or review Travel
pay collections. Instead, DFAS reviews Travel Pay overpayments identified during
monthly random audits as well as any duplicate payments identified through database
comparisons. The Acting Director stated that DFAS does not review all retired and
annuitant pay collections. DFAS performs monthly random reviews of retired and
annuitant pay accounts as well as population extracts of all payments and collections
from deceased retirees and annuitants.

The Acting Director stated that DFAS uses the results from these reviews to identify high
dollar improper payments. The Acting Director stated that all of the aforementioned
processes are implemented consistent with applicable law and within available
appropriation authority, thereby meeting the intent of Executive Order.

Our Response
Although the Acting Director for DFAS partially agreed with the recommendation, we do
not consider the comments responsive. The Executive Order implementing guidance
specifically states that high dollar overpayments should be identified by examining
several sources of information available to the agencies. DFAS identified the majority of
high dollar overpayments for civilian pay by reviewing collections. DFAS randomly
selected 110 out of 1,211 civilian pay collections in the first quarter FY 2010 and
identified 22 collections that met the requirements of a high dollar overpayment. DFAS’s
ability to accurately report high dollar overpayments, perform root cause analysis, and
identify the internal controls needed to prevent overpayments in the future would have
increased had DFAS reviewed all collections for civilian, military, travel, and retired and


                                            18
annuitant pay. We request that the Acting Director reconsider the recommendation and
provide comments for the final report.

       c. Coordinate with Military Services and Other Defense Organizations to
obtain access to civilian and military personnel records and time reporting
information for use when conducting post payment audits;

Defense Finance and Accounting Service Comments
The Acting Director partially agreed with the recommendation. The Acting Director
stated that all payment information necessary to establish an entitlement is available
through access to the automated pay systems. However, in the event key information is
missing, DFAS will coordinate with the affected agency to validate each entitlement
using specific pay records.

Our Response
Although the Acting Director for DFAS partially agreed with the recommendation, we do
not consider the comments responsive. Without access to civilian and military personnel
records and time and attendance reporting, DFAS will be unable to ensure the
information necessary for payment, that is included in the automated pay systems is
accurate. Until the accuracy of the information reported in the automated pay systems is
verified, DFAS cannot perform adequate reviews to identify improper payments and
develop root cause analysis. We request that the Acting Director provide a response to
the final report that specifies the action DFAS will take to obtain access to civilian and
military personnel records and time.

      d. Review Permanent Change of Station payments for high dollar
overpayments;

Defense Finance and Accounting Service Comments
The Acting Director agreed with the recommendation. The Acting Director stated that
the review of civilian PCS claims is included in the DFAS FY 2011 post pay review
sampling plan. DFAS estimated the date of completion to be July 1, 2011, with first
quarter FY 2011 audits to be completed by April 30, 2011.

Our Response
The Acting Director’s comments were responsive and met the intent of the
recommendation. No additional comments are required.

       e. Develop and implement internal controls to ensure only DoD personnel or
other entitled individuals with valid Social Security numbers receive payments from
the Integrated Automated Travel System for Windows;

Defense Finance and Accounting Service Comments
The Acting Director agreed with the recommendation. The Acting Director stated that
the Department has internal controls in place to ensure only individuals with valid Social

                                            19
Security Numbers receive payments from the Integrated Automated Travel System for
Windows (WinIATS). Specifically, WinIATS requires a unique nine digit identifier to
process transactions. The Acting Director stated that WinIATS has pre-payment internal
controls to flag claims when the same unique nine digit identifier is used by two travelers
with different names within the same database. Additionally, the Acting Director stated
that claims examiners are required to check the Operational Data Store (ODS) for
information on travelers before inputting claims. The ODS printout will identify the
traveler and claims examiners are to question instances when the ODS traveler and the
name on the travel claim are different. The Acting Director stated that when the same
unique nine digit identifier is used by different individuals, and they are paid in different
databases, these payments are identified and investigated in the post payment
environment. The Travel Functional Area of Standards and Compliance conducts post
duplicate payment comparisons within the DFAS/Army WinIATS data bases to identify
any potential overlapping, or duplicate payments. The Acting Director stated that once
identified, the potential erroneous payments are investigated, and if found to be
erroneous, DFAS takes corrective action.

Our Response
Although the Acting Director for DFAS agreed with the recommendation, we do not
consider the comments responsive. We agree that DFAS has controls in place to prevent
the same Social Security Number from being processed for two different individuals in
WinIATS. However, DFAS did not establish internal controls to ensure that only DoD
personnel or other entitled individuals with valid Social Security Numbers receive
payments. DFAS did not implement an internal control to verify that the Social Security
Number entered into WinIATS was the correct Social Security Number for the individual
receiving payment. Additionally, ODS does not validate the Social Security Number but
instead validates that there is no overlapping travel. We request that the Acting Director
reconsider the recommendation and provide comments for the final report.

      f. Develop and implement internal controls in both the Defense Travel
System and Integrated Automated Travel System for Windows to verify that
payment entitlements for overlapping periods are valid prior to disbursement.

Defense Finance and Accounting Service Comments
The Acting Director agreed with the recommendation. The Acting Director stated that
the Department already has internal controls to verify that payment entitlements for
overlapping periods in the Defense Travel System (DTS) and WinIATS are valid prior to
disbursement. Specifically, WinIATS and DTS contain internal edits to flag overlapping
travel periods within each system's individual database. The Acting Director stated that
in addition to the system edits, DFAS has a manual internal control to validate a
WinIATS payment when it is processed. Travel examiners are required to access and
review the ODS records for each traveler before they process a claim in WinIATS. The
Acting Director stated that the ODS printout will show any previous payments made to
that individual from any DFAS WinIATS database. The examiner can then determine if
there are any overlapping payments from those data. DFAS performs a post payment
comparison between WinIATS payments and DTS payments. The comparison looks for

                                             20
overlapping and duplicate payments. The Acting Director stated that once any potential
erroneous payment is identified, it is investigated. If found to be in error, DFAS will take
the appropriate collection action.

Our Response
Although the Acting Director agreed with the recommendation, we do not consider the
comments responsive. The stated action will not improve the internal controls currently
used by DFAS to verify overlapping payments. The Acting Director indicated that DFAS
performs a post payment comparison between WinIATS payments and DTS payments to
identify travel payments processed for the same time period. Under the existing process,
DFAS identifies errors during post payment reviews and subsequently takes corrective
action to recover the overpayment. DFAS is currently 22 months behind in performing
its pay and chase methodology. The success rate for recovering an overpayment
diminishes over time, meaning that the longer it takes to identify an overpayment, the
greater the difficulty in collecting it.

During follow-up to the draft report, DFAS personnel indicated that WinIATS and DTS
did not interface and that no pre-payment validation was performed between the two
systems. DFAS personnel indicated that a Microsoft Access program is currently in
development that will perform a pre-payment validation. However, DFAS does not yet
have a target date for implementation. An upfront verification to identify overlapping
travel between DTS and WinIATS would reduce the need to perform overlapping travel
reviews and subsequent collection efforts. We request that the Acting Director
reconsider his comments to the recommendation and provide comments for the final
report.




                                            21
Appendix A. Scope and Methodology
We conducted this performance audit from July 2010 through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The audit team did not review DoD reporting for IPIA compliance because Public Law
111-204, “Improper Payments Elimination and Recovery Act of 2010” (P.L. 111-204)
was signed into law on July 22, 2010. This new public law replaced the IPIA in the
United States Code and added requirements for Federal Departments. However, Office
of Management and Budget reporting guidance for P.L. 111-204 is currently not
available. Once guidance is issued, we will review compliance with Public Law 111-204
during the audit of Consolidated DoD Financial Statements.

In order to audit DoD’s “Reporting of High Dollar Improper Payments in accordance
with OMB Circular A-123, Appendix C, Part III,” signed by the Under Secretary of
Defense (Comptroller)/Chief Financial Officer on July 1, 2010, we obtained and
reviewed the submitted report and requested information on the methodology used to
complete the Overpayments Report. DoD Comptroller personnel and DFAS provided
information showing which programs and activities they reviewed. We discussed the
DoD reporting process with Comptroller and DFAS personnel and obtained records on
the review and reporting process. We reviewed the supporting documentation used to
prepare the Overpayments Report and conducted interviews with key personnel. In
addition, we gathered information about DoD payments from published Financial
Statements from the first quarter of FY 2010.

Use of Computer-Processed Data
To perform this audit, we obtained data from the Improper Payments Online Database
(IPOD) and the Contractor Debt System (CDS). We reviewed the data from those
systems because they were the source of information on overpayments and debts that
DFAS used to populate their universe. The data in these systems were not complete and
had coding weaknesses discussed in detail below. As a result of the incomplete data and
coding weaknesses, the audit identified areas that were not reviewed and high dollar
overpayments identified were not included in the DoD Report. The findings in this report
focus on the computer processed data weaknesses found.

We identified specific weaknesses with the CDS affecting the system’s reliability.
Specifically, the CDS allowed users to categorize the reason for a debt as “unknown.”
During the reporting process, DFAS personnel conducted a review to determine if the
"unknown" debts were improper payments. DFAS deleted debts that were determined
not to have met improper payment criteria. Once DFAS personnel completed the review,
they changed the system to ensure that debts coded as unknown were no longer entered



                                           22
into CDS. Another weakness was that not all entitlement systems were reporting into
CDS. DFAS was working to address the outstanding weakness.

Our tests of the data obtained from IPOD showed that the data were incomplete,
inaccurate, and unreliable. DFAS used IPOD to produce the Improper Payments survey
information and to track and support all improper payments reported in the DoD. DFAS
self-identified a weakness in IPOD and confirmed that not all systems submit improper
payments to that database. As a result, not all systems were included in the review and
compilation, which impacted the reliability of the DoD’s Report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) issued eight reports discussing
Improper Payments; however, none of the reports directly respond to Executive Order
13520 “Reducing Improper Payments.” Unrestricted GAO reports can be accessed over
the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-09-442, “Significant Improvements Needed in DoD’s Efforts to
Address Improper Payment and Recovery Auditing Requirements,” July 29, 2009

GAO Report No. GAO-08-16, “DoD Travel Improper Payments: Fiscal Year 2006
Reporting Was Incomplete and Planned Improvement Efforts Face Challenges,”
December 14, 2007

DoD IG
DoD OIG Report No. D-2010-037 “Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing
System,” January 25, 2010

DoD OIG Report No. D-2009-072, “Monitoring PowerTrack Payments for DoD Freight
Transportation,” April 9, 2009

DoD OIG Report No. D-2008-132, “Ocean Freight Transportation Payments Using
PowerTrack (U),” September 26, 2008. This FOUO report is not available on the website
but may be available via a Freedom of Information Act request

DoD OIG Report No. D-2008-096, “Identification and Reporting of Improper Payments
by the Defense Logistics Agency,” May 20, 2008

DoD OIG Report No. D-2008-043, “Identification and Reporting of Improper Payments
– Refunds from DoD Contractors,” January 31, 2008

DoD OIG Report No. D-2006-094, “Improper Payments for Defense Fuels,”
June 29, 2006
                                          23
Appendix B. First Quarter FY 2010 High Dollar
Overpayments Report




                          24
25
26
27
28
29
30
31
32
Appendix C. OIG Risk Assessment as Required by
Executive Order 13520
Risk Assessment
We assessed DoD’s risk of committing improper payments as high. This risk assessment
is based on auditor identified internal control weaknesses, Defense Finance and
Accounting Service (DFAS) self identified control deficiencies, and prior audit coverage
by the Government Accountability Office (GAO) and the DoD OIG.

DFAS issued a Self Identified Deficiencies Report that identified, among other issues:
   •   not all entitlement systems or areas are inputting improper payments into the
       Improper Payment Online Database or the Contractor Debt System;
   •   current improper payment reporting does not include refunds or offsets; and
   •   the amount reviewed for the Agency Financial Report does not correlate to the
       total outlays as reported on the Statement of Budgetary Resources.

Additionally, prior audit coverage has identified long-standing weaknesses in the DoD
payment process and improper payments identification and reporting. GAO Report No.
GAO-09-442 “Improper Payments: Significant Improvements Needed in DoD’s Effort to
Address Improper Payment and Recovery Audit Requirements,” July 2009 found that
DoD’s process for addressing IPIA requirements had significant weaknesses. GAO
found that DoD:
   •   did not conduct risk assessments for all of its payment activities;
   •   did not take into account the Department’s long-standing financial management
       weaknesses when it assessed the risk of improper payments occurring as low;
   •   could not provide documentation supporting the methodologies used and the final
       risk level; and
   •   did not estimate improper payments for commercial pay under IPIA requirements,
       its largest payment activity.

Previous DoD OIG reports have found problems that contribute to the high risk rating for
DoD commercial payments. For example, DoD OIG Report No. D-2010-037 “Internal
Controls Over United States Marine Corps Commercial and Miscellaneous Payments
Processed Through the Deployable Disbursing System,” January 25, 2010 reported that
“United States Marine Corps internal controls over payments processed through the
Deployable Disbursing System were not adequate to ensure the reliability of the data
processed. Specifically, United States Marine Corps did not:
   •   properly authorize 9,675 payment vouchers, totaling $310.4 million;
   •   separate authorization and payment duties;
   •   adequately control access because it used 14 multiple user accounts and 14
       generic user accounts to process a combined total of $52.7 million payments; and
   •   maintain a centralized database of the transactions processed through the
       Deployable Disbursing System.”

                                           33
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                    Click to add JPEG file




                                   34
Click to add JPEG file




               35
Click to add JPEG file




               36
Defense Finance and Accounting Service Comments




                  Click to add JPEG file




                                 37
Click to add JPEG file




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
